PROOF OF SERVICE

I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify that
on the 10th day of February, 2020, three (3) copies of the Brief Amici Curiae of Billy
Graham Evangelistic Association, et al., supporting the Petitioners in No. 19-267,
Our Lady of Guadalupe, v. Morrissey; and 19-348, St. James School, v. Biel; were
served by first-class mail, postage pre-paid, on the following:

Counsel for the Petitioners
Eric Christopher Rassbach
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036
erassbach@becketlaw.org
Counsel for the Respondents
Jennifer Anne Lipski
JML Law, A Professional Law Corporation
5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367
jennifer@jmllaw.com
/s/ Frederick W. Claybrook, Jr.
FREDERICK W. CLAYBROOK, JR.
Counsel of Record
CLAYBROOK LLC
700 Sixth St., N.W., Ste. 430
Washington, D.C. 20001
tel. (202) 250-3833
Rick@claybrooklaw.com

